                     U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL




                             AUDIT OF
                     CONSULTANT AGREEMENTS AT
                  LOS ALAMOS NATIONAL LABORATORY




The Office of Inspector General wants to make the distribution of
its reports as customer friendly and cost effective as possible.
Therefore, this report will be available electronically through
the Internet five to seven days after publication at the
following alternative addresses:

            Department of Energy Headquarters Gopher
                        gopher.hr.doe.gov

         Department of Energy Headquarters Anonymous FTP
                       vm1.hqadmin.doe.gov

Department of Energy Human Resources and Administration Home Page
               http://www.hr.doe.gov/refshelf.html

Your comments would be appreciated and can be provided on the
Customer Response form attached to the report.

              This report can be obtained from the
                    U.S. Department of Energy
         Office of Scientific and Technical Information
                           P.O. Box 62
                   Oak Ridge, Tennessee 37831




Report Number:   WR-B-96-05             Western Regional Audit Office
Date of Issue:   February 23, 1996      Albuquerque, NM 87185-5400

                             AUDIT OF
                     CONSULTANT AGREEMENTS AT
                  LOS ALAMOS NATIONAL LABORATORY




                         TABLE OF CONTENTS


                                                                Page

            SUMMARY .........................................     1

PART I    - APPROACH AND OVERVIEW ...........................     2

            Introduction ....................................     2

            Scope and Methodology ...........................     2

            Background ......................................     3

            Observations and Conclusions ....................     3

PART II   - FINDINGS AND RECOMMENDATIONS ....................     5

            Consultant Agreements at
            Los Alamos National Laboratory ..................     5

PART III - MANAGEMENT AND AUDITOR COMMENTS .................      8
                   U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES
                  WESTERN REGIONAL AUDIT OFFICE

                AUDIT OF CONSULTANT AGREEMENTS AT
                 LOS ALAMOS NATIONAL LABORATORY

Audit Report Number:   WR-B-96-05                 February 23, 1996

                              SUMMARY

     The Department of Energyms (Department) Albuquerque Operations
Office (Albuquerque) and Los Alamos National Laboratory (Los Alamos)
are responsible for acquiring consulting services in a manner most
advantageous to the Government by ensuring adequate competition.
Although the Department prefers competitively awarding subcontracts,
including consultant agreements, to ensure the lowest possible cost,
it allows sole sourcing a subcontract if the sole source is fully
justified. The objective of the audit was to determine whether Los
Alamosm consultant agreements contained adequate sole source
justifications. The audit showed that Los Alamos may not have
acquired some of its consultant agreements at the lowest possible cost
because it did not prepare adequate sole source justifications for 17
sole source consultant agreements valued at $842,900.

     This condition existed because: (1) requesters did not follow
policies and procedures when preparing sole source justifications, (2)
Los Alamos did not have an internal mechanism to reject consultant
agreements that were not adequately justified, and (3) the Department
did not review consultant agreements to evaluate the adequacy of sole
source justifications. Without adequate justifications, the
Department cannot be assured that consultant services were obtained at
the lowest possible cost.

     We therefore recommended that the Manager, Albuquerque Operations
Office require Los Alamos to ensure proper sole source justifications
and enhance internal controls over consultant agreements. Management
agreed to implement the recommendations.




                                        ___________________________
                                        OFFICE OF INSPECTOR GENERAL
                              PART I

                       APPROACH AND OVERVIEW

INTRODUCTION

      Los Alamos, a national laboratory managed by the University
of California for the Department of Energy, is involved in
multiple areas of research and development in science and nuclear
technologies. In order to help accomplish its mission, Los
Alamos entered into subcontracts called consultant agreements on
a fee or per diem basis. Los Alamos used these agreements to
obtain the services of consultants who provided expert technical
or professional advice or assistance. Los Alamos also obtained
the services of borrowed personnel who were on loan from private
companies and who were hired through consultant agreements. For
the purpose of our audit, we considered consultants and borrowed
personnel to be synonymous because they were both employed
through consultant agreements.

     The objective of the audit was to determine whether Los
Alamosm consultant agreements contained adequate sole source
justifications.

SCOPE AND METHODOLOGY

     The audit was conducted at Los Alamos and Albuquerque from
March to October 1995. The audit included a review of Department
and Los Alamos policies and procedures pertaining to consultant
agreements. The audit emphasized the polices and procedures in
place during Fiscal Years 1994 and 1995. Specifically, we
sampled 54 consultant agreements valued at $1.1 million from a
population of 1,796 consultant agreements valued at $34 million.

     Consistent with the audit objective, we:

         reviewed laws and regulations, applicable DOE orders,
       policies and procedures, memoranda, purchase orders, and
       correspondence concerning consultants;

         reviewed the policies and procedures of Albuquerque and Los
       Alamos relating to consultants; and,

         interviewed Los Alamos and Albuquerque personnel responsible
       for awarding, monitoring, and approving consultant agreements.

     The audit was performed in accordance with generally
accepted Government auditing standards for performance audits and
included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit
objective. Accordingly, we assessed the significant internal
controls with respect to the sole source justification of
consultant agreements. Further, our assessment consisted of
identifying and reviewing Los Alamosm and Albuquerquems
management and administrative controls relating to the
justification of consultant agreements. We relied on computer
generated data to determine the universe of the consultant
agreements. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that
may have existed at the time of our audit.

BACKGROUND

     As a management and operating contractor, the University of
California operates Los Alamos for the Department. Because Los
Alamos is involved in multiple and diverse areas of research and
development, it sometimes obtains the services of consultants to
accomplish its mission. Consultants are individuals who provide
views or opinions on problems or questions in their field of
expertise. This expertise may be based on broad administrative,
professional, or technical experience which enables the
consultant to provide advice considered to be valuable.

     At the time of the audit, Los Alamos employed 1,796
consultants whose agreements were valued at $34 million. The
number of consultants at Los Alamos was much higher than the
combined total of 905 consultants employed by four other western
national laboratories: Idaho National Engineering, Lawrence
Berkeley, Lawrence Livermore, and Sandia. In addition to these
consultants, Los Alamos also employed 846 guest scientists and
503 special program personnel.

OBSERVATIONS AND CONCLUSIONS

     The audit showed that the Department had mechanisms to
monitor Los Alamosm consultant agreements. The Albuquerque
Operations Office, for example, performed regular Contractor
Purchasing System Reviews and regular surveillance reviews. In
addition, the Los Alamos Area Office was responsible for
approving all consultant fees in excess of $500 a day. However,
this review did not include the evaluation of sole source
justifications.

     We also found that Los Alamos proposed several quality
improvements relating to its consultant agreements. These
changes included: (1) placing the standard consulting agreement
contract clauses on the Internet, (2) eliminating irrelevant
clauses from the consultant agreements, and (3) placing the
request forms on-line via Los Alamosm internal computer network.
Procurement personnel stated that these changes, when fully
implemented, would streamline the awards process and reduce the
processing time from about six weeks to 48 hours.

     The audit disclosed that despite these efforts Los Alamos
did not adequately justify 17 consultant agreements valued at
$842,900. We therefore recommended that Albuquerque require Los
Alamos to ensure proper sole source justifications and to enhance
internal controls over consultant agreements.

     The Office of Inspector General identified similar problems
with sole sourcing in a previous audit report (lSubcontracting
For Environmental Services At Los Alamos National Laboratoryn)
issued in September 1994. That audit showed that Los Alamos did
not adequately justify its sole source environmental
subcontracts. Specifically, the audit noted that the sole source
justifications did not include the required documentation and
merely stated that the subcontractor was uniquely qualified.

     The finding in this report disclosed material internal
control weaknesses that management should consider when preparing
its yearend assurance memorandum on internal controls.
                             PART II

                   FINDING AND RECOMMENDATIONS
                   AUDIT OF CONSULTANT AGREEMENTS AT
                    LOS ALAMOS NATIONAL LABORATORY

FINDING

     Department regulations state that purchases, which include
consulting agreements, be acquired in a manner most advantageous
to the Government by ensuring competition. These agreements may
be sole sourced, if the sole source is fully justified. In
contrast to these regulations, our review found that Los Alamos
did not adequately justify 17 sole source consultant agreements
valued at $842,900. This condition occurred because: (1)
requesters did not follow policies and procedures when preparing
sole source justifications, (2) Los Alamos did not have an
internal control mechanism to reject agreements that were not
adequately justified, and (3) the Department did not review the
adequacy of sole source justifications. Without adequate
justifications, the Department may not have obtained consultant
services at the lowest possible cost.

 RECOMMENDATIONS

     We recommend that the Manager, Albuquerque Operations
Office:

     1.   Require Los Alamos to ensure that requesters prepare
          sole source justifications in accordance with policies
          and procedures.

     2.   Require Los Alamos to establish an internal control
          mechanism to reject consultant agreements that are not
          fully justified.

     3.   Require the Los Alamos Area Office to periodically
          review consultant agreements to evaluate the adequacy of
          sole source justifications.

MANAGEMENT REACTION

     Management agreed with the finding and agreed to implement
the recommendations. Detailed management and auditor comments
are provided in Part III of this report.

                          DETAILS OF FINDING

     Department Acquisition Regulations require management and
operating contractors to award consultant agreements in the
manner most advantageous to the Government by ensuring
competition. Although the Department prefers competitively
awarding these agreements to ensure the lowest possible cost, it
allows sole sourcing if the sole source is fully justified. The
regulations also require that the contractorms purchasing system
establish a dollar value above which the basis for each non-
competitive purchase is clearly documented. This documentation
must include a justification prepared by the requesting
organization and approved at appropriate levels in the
contractorms purchasing organization.
     The University of California Standard Practices also contain
requirements for sole source justifications. Specifically, the
standard practices require a justification for all sole source
purchases over $25,000. Further, the standard practices state
that a sole source justification must include: (1) a statement
of work, (2) a description of the capabilities required to
perform the task, (3) the manner in which potential sources were
identified, evaluated, and rejected (these techniques could
include market research and market survey), and (4) a reason why
the recommended individual was uniquely qualified and was the
only person who could meet the minimum programmatic needs of the
Laboratory. The standard practices also specifically state that
a sole source acquisition cannot be justified based only on the
contention that the selected consultant was uniquely qualified;
the standard practices point out that this contention must be
supported by facts, not by opinions or assumptions.

     The Los Alamosm Consultant Contracting Services Desk Guide
states that sole source justifications must explain the unique
qualifications or experience required and indicate why a
particular individual is the only one qualified to perform the
services. In order to substantiate the uniqueness of a
consultantms expertise, the justification must describe the
consultantms skills and credentials as well as the results of a
search for comparable talent.

SOLE SOURCING OF CONSULTANT AGREEMENTS

     The audit showed that Los Alamos did not prepare adequate
sole source justifications. We reviewed 54 consultant agreements
valued at $1.1 million and found that 17, valued at $842,900,
required a sole source justification because they were over the
stipulated $25,000 threshold. Three of these agreements had no
justifications and 14 had justifications that were inadequate.
The inadequate justifications did not contain detailed statements
of work or a description of the capabilities required to perform
the task. In addition, the justifications did not identify
potential sources, give reasons for the consultantms being
uniquely qualified to perform the services, and did not provide
documentation explaining why the consultant was the only one who
could meet the Laboratoryms programmatic needs.

     One example of an inadequate sole source justification was
as follows: lDiversity Strategic Planning-Consultant Expertise
and Input. The areas of Expertise are: actually aware of
diversity/competitive business practices, experience developing
TQM programs, familiarity with Los Alamos National Laboratory,
the community and DOE practices, exceptions and specifications.n
The justification, however, did not include a detailed
description of the work to be performed, capabilities required to
perform the task, other potential sources, and an explanation why
the consultant was the only one who could meet the Laboratoryms
programmatic needs.

SOLE SOURCE JUSTIFICATIONS
     The requesters did not follow Los Alamosm own policies and
procedures because they considered the process for a sole source
justification to be cumbersome. Another contributing factor was
the lack of an internal control mechanism within the Office of
Procurement to reject consultant agreements that were not
adequately justified. Although procurement personnel indicated
that they challenged agreements that had inadequate
justifications or no justifications, we did not see any evidence
that this practice had taken place. We discussed this issue with
Department officials during the audit. They stated that Los
Alamos needed to institute a mechanism to reject consultant
agreements which were not adequately justified.

     Also, the Los Alamos Area Office did not review the adequacy
of sole source justifications. Area Office personnel stated that
only one individual reviewed consultant agreements and that the
review pertained to conflict of interest issues and was
restricted to consultant agreements exceeding $500 per day.
Moreover, Area Office personnel acknowledged that inadequate sole
source justifications were a continuing problem at Los Alamos.

LOWEST POSSIBLE COST

     As a result of inadequate or missing sole source
justifications, Los Alamosm consultant agreements may not have
been procured at the lowest possible cost. Specifically, the
Department did not receive the benefits available from
competition when Los Alamos awarded sole source consultant
agreements without ensuring that potential bidders had an
opportunity to compete. Thus, the Department did not know
whether other consultants may have been available to perform the
required tasks at a lower cost than the sole source consultant
who was selected.

                             PART III

                 MANAGEMENT AND AUDITOR COMMENTS

     The Manager, Albuquerque Operations Office concurred with
the finding and recommendations. Managementms comments and our
responses are included below.

     Management Comments. Management concurred with
recommendation 1 to require Los Alamos to ensure that requesters
prepare sole source justifications in accordance with policies
and procedures. According to managementms response, Los Alamos
policy requires revision to adequately address sole sourcing. By
the end of March 1996, Los Alamos will submit to the Department
for approval a revision to its standard practice manual
addressing sole source issues.

     Auditor comments.   Managementms comments are responsive to
the recommendation.

     Management Comments. Management concurred with
recommendation 2 to require Los Alamos to establish an internal
control mechanism to reject consultant agreements that are not
fully justified. Los Alamos will institute a laboratory-wide
training program to educate the technical representatives who
prepare the justifications. This will enable Los Alamos to
address inadequate justifications at the source. The Department
will evaluate Los Alamosm success at rejecting inadequately
justified consultant agreements during its annual review.

     Auditor comments.   Managementms comments are responsive to
the recommendation.

     Management comments. Management concurred with
recommendation 3 to require the Los Alamos Area Office to
periodically review consultant agreements to evaluate the
adequacy of sole source justifications. By July 31, 1996, Los
Alamos will review a representative sample of consultant
agreements issued after the implementation of the new procedures
discussed above. The Area Office will continue to review the
consultant agreements periodically. This will primarily be
accomplished during the annual review as well as through day-to-
day fee approvals for consultant agreements over $500.

     Auditor comments.   Managementms comments are responsive to
the recommendation.

     Additional Comments. Management did not agree with the
report statement that without adequate sole source
justifications, the Department cannot be assured that consultant
services were obtained at the lowest possible cost. According to
managementms response, costs are evaluated as a separate action
from sole source justifications. A consultantms proposed daily
fee is reviewed and a determination is made as to whether it is
fair and reasonable by using cost and price analysis. A
consultantms current salary, other private sector consulting
contracts, or a comparison with consultant fees for the same or
similar expertise determine the negotiating position. Management
believes this process has provided sound rationale for
negotiating lower daily fees in cases where the consultant was
not able to justify a proposed fee.

     Auditor Comments. Department regulations require management
and operating contractors to award consultant agreements in the
manner most advantageous to the Government by ensuring
competition. Although the Department prefers competitively
awarding these agreements to ensure the lowest possible cost, it
allows sole sourcing if the sole source is fully justified.
Because of inadequate or missing sole source justifications, we
could not determine if consultants were competitively (which
includes consultant fees) obtained at the lowest possible cost.
Moreover, our review of the files did not show that cost and
price analysis was performed.

                                     IG Report No. WR-B-96-05



                    CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make our
reports as responsive as possible to our customers' requirements, and
therefore ask that you consider sharing your thoughts with us. On
the back of this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

1.    What additional background information about the selection,
     scheduling, scope, or procedures of the audit or inspection would
     have been helpful to the reader in understanding this report?

2.     What additional information related to findings and
       recommendations could have been included in this report
       to assist management in implementing corrective actions?

3.     What format, stylistic, or organizational changes might have
       made this reportms overall message more clear to the reader?

4.     What additional actions could the Office of Inspector General
       have taken on the issues discussed in this report which would
       have been helpful?

Please include your name and telephone number so that we may contact
you should we have any questions about your comments.

Name                                  Date

Telephone                             Organization

When you have completed this form, you may telefax it to the Office
of Inspector General at (202) 586-0948, or you may mail it to:

        Office of Inspector General (IG-1)
        Department of Energy
        Washington, D.C. 20585
        ATTN: Customer Relations

If you wish to discuss this report or your comments with a
staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
